   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499



November 10, 2011

Report Number: A-03-11-00200

Mr. Joshua M. Sharfstein, MD
Secretary
Maryland Department of Health and Mental Hygiene
201 West Preston Street
Baltimore, MD 21201

Dear Dr. Sharfstein:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Personal Care Services Claimed Under
Maryland’s Medicaid State Plan. We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-03-11-00200 all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF PERSONAL CARE SERVICES
   CLAIMED UNDER MARYLAND’S
      MEDICAID STATE PLAN




                         Daniel R. Levinson
                          Inspector General

                          November 2011
                          A-03-11-00200
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Maryland, the Department of Health
and Mental Hygiene (the State agency) administers the Medicaid program.

Federal Requirements for Personal Care Services

Section 1905(a)(24) of the Act defines personal care services as an allowable Medicaid benefit.
Pursuant to section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR §
440.167), personal care services must be (1) authorized for the individual by a physician in
accordance with a plan of treatment or (at the option of the State) otherwise authorized for the
individual in accordance with a service plan approved by the State; (2) provided by an individual
who is qualified to provide such services and who is not a legally responsible family member;
and (3) furnished to individuals residing in their homes and not residing in hospitals, nursing
facilities, intermediate care facilities for the mentally retarded, or institutions for mental diseases.

Maryland’s Personal Care Services Program

Within the State agency, the Office of Health Services’ Long-Term Care and Community
Support Services Administration oversees Maryland’s Medicaid personal care services
program and is responsible for authorizing care. Personal care services include, but are
not limited to, bathing, assistance with toileting or bed pan use, meal preparation in
accordance with dietary guidelines and assistance with eating, and shopping for items
related to promoting the patient’s nutritional status and other health needs. A registered
nurse develops a plan of care and monitors the delivery of service on behalf of the
beneficiary. Personal care aides deliver the service.
Amendment 05-09 of the State plan allows personal care services provided “in a beneficiary’s
home or workplace, authorized by a physician in accordance with a plan of treatment or
authorized for the individual in accordance with a plan of treatment approved by the Department
of Health and Mental Hygiene.” 1 The Code of Maryland Regulations (COMAR 10.09.20)
implements the State plan’s personal care services programs.


1
 State plan amendment 05-09, Attachment 3.1-A, page 31B. State Plan amendment 00-01 provides for personal
care services, with limitations, for the medically needy (Attachment 3.1-B, page 8).


                                                     1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether State agency claims of personal care services complied
with Federal and State requirements.

Scope

Our audit period covered July 1, 2008, through June 30, 2010. Our audit population consisted of
2,057,060 claims, totaling $54,383,241 ($32,170,909 Federal share), for services rendered by
3,725 providers 2 to 6,628 beneficiaries. Our audit population did not include claims for services
submitted by providers under Maryland’s Home and Community Based Waiver for Older
Adults. We audited those claims separately.

In performing our review, we established reasonable assurance that the claims data was accurate.
We limited our review to local health department files to determine whether the documentation
met the required Federal and State requirements and identified unallowable claims. Achieving
our objective did not require that we assess the claims for medical necessity or quality of care.
During our audit, we did not review the overall internal control structure of the State or the
Medicaid program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency’s office in Baltimore, Maryland, and at local health
department offices in 13 counties and Baltimore City.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal statutes, Federal and State regulations, and State guidelines;

    •   held discussions with State agency officials, including local health department officials,
        to gain an understanding of the personal care services program in Maryland;

    •   identified 2,057,060 personal care service claims totaling $54,383,241 ($32,170,909
        Federal share);

    •   selected a simple random sample of 100 claims from the sampling frame of 2,057,060
        claims;




2
 The providers included 3,693 self-employed personal care aides, 8 personal care agency providers, and the 24 local
Maryland Department of Health offices.


                                                        2
   •   reviewed the corresponding local health department files to determine whether the
       documentation met the required Federal and State requirements and identified
       unallowable claims; and

   •   discussed our findings with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                    RESULTS OF REVIEW
State agency claims for personal care services generally complied with Federal and State
requirements. Based on our review of 100 claims, 3 claims were unallowable because the
services were unsupported by case records or insufficiently documented. Since this is below the
threshold of six errors needed for a statistical projection, we have no finding nor do we offer any
recommendations.




                                                 3
